A
ALLIANCE DEFENDING

FREEDOM

February 13, 2020

Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N .E.
Washington, DC 20543-0001

Re: No. 19-968, Uzuegbunam v. Preczewski
Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioners Chike Uzuegbunam and
Joseph Bradford hereby give blanket consent to the filing of amicus curiae briefs in
support of either or of neither party in the above-referenced case, with respect to the
petition for writ of certiorari filed on January 31, 2020. Thank you for your
assistance.
Sincerely,

9J._9~
John J. Bursch
Counsel for Petitioners

cc:

Ellen Cusimano, Office of the Georgia Attorney General
Counsel for Respondents

15100 N. 901h Slreet. Scoltsdale . AZ 85260

Phone: 480.444.0020

Fax: 480 444.0025

ADFlegal.org

